HHS/OIG, Audit -"Review of Outpatient Cardiac Rehabilitation Services At The Cooley Dickinson Hospital,"(A-01-03-00516)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services At The Cooley Dickinson Hospital," (A-01-03-00516)
December 26, 2003
Complete Text of Report is available in PDF format (272 KB). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed the Cooley Dickinson Hospital (Hospital)
for outpatient cardiac rehabilitation services.  The Hospital relies upon physicians working nearby in the Hospital
and in its emergency department for direct physician supervision coverage of its outpatient cardiac rehabilitation program.  However,
medical record documentation we examined showed little evidence that a physician personally sees a patient periodically
throughout the program.  In addition, we reviewed a sample of 15 Medicare beneficiaries who received outpatient cardiac
rehabilitation services during calendar year 2001.  We found that medical and billing records provided by the Hospital
in support of seven beneficiaries receiving cardiac rehabilitation services totaling $1,656 did not always support the
diagnoses used to establish the patients’ eligibility for cardiac rehabilitation.  We recommended that the Hospital
work with the FI to ensure that the Hospital’s outpatient cardiac rehabilitation program is being conducted in accordance
with Medicare coverage and billing requirements.  The Hospital generally agreed with our recommendations.